Audit of Costs Claimed by West Virginia Advocates, Incorporated, Charleston, West Virginia, October 1, 1998 through March 31, 2001, (A-03-01-00511)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Costs Claimed by West Virginia Advocates, Incorporated, Charleston, West Virginia, October 1, 1998 through
March 31, 2001," (A-03-01-00511)
May 20, 2002
Complete
Text of Report is available in PDF format (595 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
From October 1, 1998 through March 31, 2001, West Virginia Advocates, Incorporated  (WVA) received $1,383,679 in
Federal funds.  The Administration for Children and Families provided $695,238 for the Protection and Advocacy for
Persons with Developmental Disabilities (PADD) program and the Substance Abuse and Mental Health Services Administration
provided $688,441 for the Protection and Advocacy for Individuals with Mental Illness (PAIMI) program.  We found that
WVA charged excessive indirect costs of $47,196 to the PADD and PAIMI programs.  The excessive indirect costs claimed
were attributable to WVA applying an incorrect rate and changing its allocation method without approval.  The WVA
had no policies to assure that credit card purchases were program related, not of a personal nature, allowable, allocable
and accounted for properly.  The WVAs travel policies did not require advance approval for all travel or that travel
expense statements be submitted in a timely manner after the completion of travel, to ensure that travel expenses meet
the test of reasonableness, necessity, and allowability.  Furthermore, WVA did not have adequate policies in place
to ensure that time and attendance was correctly maintained and that programs were being charged for salaries and wages
in accordance with regulations.  We recommended that WVA refund $22,858 to the PADD program and $24,338 to the PAIMI
program; and establish adequate written policies and procedures relating to credit card charges, travel, and time and attendance.